             FINANCIAL REPORTING FOR OTHER
             DEFENSE ORGANIZATIONS AT THE
           DEFENSE AGENCY FINANCIAL SERVICES
                  ACCOUNTING OFFICE


Report No. D-2001-048               February 9, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CFO                   Chief Financial Officers
DFAS                  Defense Finance and Accounting Service
ODC                   Obligation Data Code
WAAS                  Washington Headquarters Services Allotment Accounting System
                        Office of the Inspector General, DoD
Report No. D-2001-048                                                   February 9, 2001
  (Project No. D2000FA-0146)

         Financial Reporting for Other Defense Organizations at the
            Defense Agency Financial Services Accounting Office

                                 Executive Summary

Introduction. This report is the first in this series addressing the underlying financial
reporting processes that cause abnormal balances on the trial balances of Other Defense
Organizations. An account balance is abnormal when the reported balance does not
comply with the normal debit or credit balance established in the general ledger chart of
accounts. We performed the audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare consolidated financial statements. The
DoD Agency-Wide financial statements include a reporting entity entitled “Other
Defense Organizations-General Funds.” This entity represents a consolidation of
financial information from various Defense organizations and funds that use the
Treasury Index 97 symbol. The Defense Agency Financial Services accounting office
at the Defense Finance and Accounting Service Center Indianapolis (Sustaining Forces)
provides accounting support for 18 of these Defense organizations.

Objectives. The audit objective was to determine the accuracy and completeness of the
data that the Defense Agency Financial Services accounting office submitted to the
Chief Financial Officer Team, also located at the Defense Finance and Accounting
Service Center Indianapolis (Sustaining Forces), for inclusion in the FY 2000 Other
Defense Organizations financial statements. In addition, we reviewed the management
controls related to our objective.

Results. Trial balances prepared from accounting records that the Defense Agency
Financial Services accounting office maintained included $233.8 million of net
abnormal balances, none of which were explained in required footnotes. We examined
81.4 percent of the abnormal balances on the March 31, 2000, trial balances and
determined that in FY 2000:

     •    $129 million of net abnormal balances occurred because the Indianapolis
          Accounting Office did not ensure that accruals and corresponding
          disbursements were both recorded as either Government or non-Government
          transactions; and

     •    $61.2 million of net abnormal balances occurred because the Washington
          Headquarters Services Allotment Accounting System incorrectly posted
          adjustments for prior reporting periods to incorrect general ledger accounts in
          the current year, and because the Indianapolis Accounting Office incorrectly
          recorded accruals twice and posted adjustments to incorrect general ledger
          accounts to remove the duplicate accruals.
During the audit, the Defense Agency Financial Services accounting office took
effective action to reduce deficiencies identified during the audit, thereby reducing
reported year-end total net abnormal balances from $215.8 million as of September 30,
1999, to $75.6 million as of September 30, 2000.

Until abnormal balances and control deficiencies are corrected, FY 2001 and future
financial statements prepared for the Other Defense Organizations will be misstated.
Additionally, financial statement preparers will not be able to properly eliminate
intra-DoD transactions of the Defense Agency-Wide financial statements. For details
of the audit results, see the Finding section of the report. See Appendix A for details
on the management control program.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Center Indianapolis (Sustaining Forces), review all accruals
and disbursements and correct related transactions that are not consistently recorded as
Government or non-Government transactions. We also recommend that control
procedures be implemented to correctly record accruals and disbursements in the
future. Further, we recommend revising current procedures to provide detailed
guidance to accounting personnel on reviewing, researching, and correcting deficiencies
identified on the trial balance financial reports and to prepare explanatory footnotes for
remaining abnormal balances.

Management Comments. The Director, Defense Finance and Accounting Service,
concurred with the finding and recommendations. The Defense Finance and
Accounting Service Center Indianapolis (Sustaining Forces) is working with the
Washington Headquarters Services to identify document numbers with mismatched
obligation indicator codes for obligations, accruals, and disbursements; and Indianapolis
personnel will review the related supporting documentation and manually correct
related transactions. The Indianapolis office will also evaluate current procedures and
develop new control procedures to correctly record accruals and disbursements.
Further, the Indianapolis office is currently revising guidance for accounting personnel
on reviewing, researching, and correcting deficiencies identified on the trial balance
financial reports and on preparing explanatory footnotes. The Defense Finance and
Accounting Service estimates completion of all actions by March 31, 2001. See the
Finding section for a discussion of management comments, and the Management
Comments section for the text of the comments.




                                            ii
Table of Contents

Executive Summary                                             i


Introduction
     Background                                               1
     Objectives                                               2

Finding
     Accuracy of Trial Balances                              3

Appendixes
     A. Audit Process
         Scope                                               13
         Methodology                                         14
         Management Control Program Review                   15
         Prior Coverage                                      16
     B. General Ledger Accounts With Net Abnormal Balances   17
     C. Report Distribution                                  18

Management Comments
     Defense Finance and Accounting Service                  21
Background

    Other Defense Organizations. The audit was performed as part of the
    continuing audit work of the Inspector General, DoD, in support of the Chief
    Financial Officers (CFO) Act of 1990, as amended by the Federal Financial
    Management Act of 1994. Specifically, the DoD Agency-Wide financial
    statements include a reporting entity entitled “Other Defense Organizations-
    General Funds.” This entity represents a consolidation of financial information
    from various Defense organizations and funds that use the Treasury Index
    Symbol 97 (also referred to as Department 97). The Defense Finance and
    Accounting Service (DFAS) provides accounting support to a majority of the
    individual Defense organizations and funds.

    Accounting Support. The DFAS Center Indianapolis (Sustaining Forces) has
    an accounting office known as the Defense Agency Financial Services Office
    (Indianapolis Accounting Office). The Indianapolis Accounting Office provides
    accounting support to 18 Other Defense Organizations. Accounting support
    includes receiving, recording, and analyzing obligations, accruals, and
    disbursements in several accounting systems and preparing miscellaneous
    budgetary reports and trial balances. The Indianapolis Accounting Office uses
    the Washington Headquarters Services Allotment Accounting System (WAAS)
    to record the transactions and to prepare quarterly trial balances that are
    consolidated at year-end into the financial statements for the Other Defense
    Organizations. As part of the overall quality control process, Indianapolis
    Accounting Office personnel are required to prepare trial balances on a
    quarterly basis to identify deficiencies when they occur and to correct those
    deficiencies before preparing the year-end financial statements. Inspector
    General, DoD, Report No. D-2000-153, “Compilation of the FY 1999 Financial
    Statements for Other Defense Organizations-General Funds,” June 23, 2000,
    states that the Indianapolis Accounting Office reported $215.8 million of total
    net abnormal balances that were included in the year-end trial balances. An
    account balance is abnormal when the reported balance does not comply with
    the normal debit or credit balance established in the general ledger chart of
    accounts.

    Washington Headquarters Services Allotment Accounting System. The
    Indianapolis Accounting Office uses the WAAS to perform general ledger
    accounting. The WAAS is a Washington Headquarters Services-owned
    automated, transaction-driven accounting system using DoD standard general
    ledger accounts. The WAAS is also able to produce trial balances by fiscal year
    and by appropriation. DoD adopted the U.S. Government Standard General
    Ledger as the DoD standard in FY 1999. However, since the WAAS is a DoD
    legacy system, its general ledger accounts were not changed and, therefore, do
    not fully match the U.S. Government Standard General Ledger. According to
    the DoD Financial Management Improvement Plan, Volume II, September
    2000, consolidation of the WAAS into the Defense Joint Accounting System is
    scheduled for October 2004; however, development of the new system is
    unfunded.




                                       1
Objectives

     The audit objective was to determine the accuracy and completeness of the data
     the Indianapolis Accounting Office submitted to the CFO Team at the DFAS
     Center Indianapolis (Sustaining Forces), for inclusion in the FY 2000 Other
     Defense Organizations financial statements. Specifically, we determined why
     the Indianapolis Accounting Office was submitting large abnormal balances in
     its trial balances. In addition, we reviewed Indianapolis Accounting Office
     management controls related to our objectives. See Appendix A for a discussion
     of the audit scope, methodology, review of the management control program,
     and prior coverage related to the audit objectives.




                                       2
           Accuracy of Trial Balances
           Trial balances prepared from accounting records that the Indianapolis
           Accounting Office maintained included $233.8 million of net abnormal
           balances, none of which were explained in required footnotes. We
           examined 81.4 percent of the abnormal balances on the March 31, 2000,
           trial balances and determined that:

                  •   $129 million of net abnormal balances occurred because the
                      Indianapolis Accounting Office did not ensure that accruals
                      and corresponding disbursements were both recorded as either
                      Government or non-Government transactions; and

                  •   $61.2 million of net abnormal balances occurred because:

                      − the WAAS, as configured, did not properly identify
                        accrual adjustments affecting prior reporting periods and,
                        therefore, did not post those transactions to the correct
                        general ledger accounts, and

                      − the Indianapolis Accounting Office incorrectly recorded
                        accruals twice and posted adjustments to remove the
                        duplicate accruals to the incorrect general ledger accounts.

           The condition also occurred because the Indianapolis Accounting Office
           did not have adequate written procedures to review trial balances and to
           disclose abnormal conditions and to coordinate reviews and corrective
           actions with relevant Other Defense Organizations. Also, the WAAS did
           not provide the requisite query interfaces in an executable format for
           Indianapolis Accounting Office personnel to effectively research and
           correct deficiencies.

           The Indianapolis Accounting Office took action to correct deficiencies
           and improve the accuracy of the trial balance data for FY 2000.
           However, until control deficiencies are fully corrected, the FY 2001 and
           future financial statements prepared for the Other Defense Organizations
           likely will be misstated. Additionally, financial statement preparers will
           not be able to properly eliminate intra-DoD transactions on the Defense
           Agency-Wide financial statements.



Mid-Year Trial Balances

    The March 31, 2000, trial balances prepared from accounting records that the
    Indianapolis Accounting Office maintained reported $233.8 million of net
    abnormal balances in 29 general ledger accounts for 14 Other Defense
    Organizations. See Appendix B for a list of the general ledger accounts with
    abnormal balances. We reviewed the three general ledger accounts that reported
    the largest net abnormal balances, which totaled $190.2 million and represented
    81.4 percent of the total abnormal balances, as shown in Table 1.


                                        3
              Table 1. Three General Ledger Accounts With the
                       Largest Net Abnormal Balances
                            as of March 31, 2000

                                 General     Abnormal         Percent of Total
                                 Ledger      Balances          Net Abnormal
       Account Title             Account      (millions)          Balance

  Accounts Payable-
    Government-Current             2111        $129.0               55.2

  Appropriated Capital Used        5700           33.1              14.2

  Other Services Expense           6120           28.1              12.0

     Total                                     $190.2               81.4


An account balance is abnormal when the reported balance does not comply
with the normal debit or credit balance established in the general ledger chart of
accounts.

Matching Accruals and Disbursements. Of the $233.8 million in net
abnormal balances, $129 million was reported in Accounts Payable-
Government-Current (general ledger account 2111) because accruals and
corresponding disbursements were not consistently recorded as either
Government or non-Government transactions. We reviewed accrual and
disbursement transactions valued at $114.4 million. The abnormal balances
were created because accounting personnel did not ensure that accruals and
corresponding disbursements were both recorded as either Government or
non-Government transactions, which created a mismatch between related
accruals and disbursements.

        Classification as Government and Non-Government. Each obligation,
accrual, and disbursement transaction recorded in the WAAS is assigned an
obligation data code (ODC), commonly referred to as the Government indicator
code, that classifies the transaction as either occurring with other Government
agencies, represented by a “G,” or with non-Government entities, represented
by an “N.” Based on the ODC, the WAAS posts transactions to the
Government and non-Government general ledger accounts. Government
accruals and disbursements are posted to Accounts Payable-Government-Current
(general ledger account 2111), and non-Government accruals and disbursements
are posted to Accounts Payable-Public-Current (general ledger account 2113).
The accrual and related disbursement must have the same ODC for the
transactions to be matched and posted to the correct general ledger account, as
shown in Table 2.




                                     4
      Table 2. ODC Classifications and General Ledger Accounts Used
         to Report Government and Non-Government Transactions

       Type of             ODC for          ODC for            General Ledger Account
      Transaction          Accruals       Disbursements          Number and Title

                                                               2111, Accounts Payable-
      Government               G                  G              Government-Current

                                                               2113, Accounts Payable-
 Non-Government                N                  N                Public-Current



       Recording Accruals and Disbursements. For related transactions
where both the accruals and disbursements should have been recorded with the
same ODC, accounting personnel recorded at least $114.4 million of
transactions with different ODCs for general ledger account 2111. Accounting
personnel recorded all accruals with an ODC of “N” (posted to general ledger
account 2113) and the related disbursements with a “G” (posted to general
ledger account 2111). The normal balance for both general ledger accounts
(2111 and 2113) is a credit balance and is calculated by subtracting total
disbursements from total accruals. As a result, general ledger account 2111 had
an abnormal debit balance of $114.4 million, and general ledger account 2113,
although reporting a normal credit balance, was overstated by the same amount,
as shown in Table 3.

               Table 3. Impact of Recording Related Transactions
                            With Different ODCs

                                                               General
         ODC             Accruals        Disbursements         Ledger            Balance1
     Classification      (millions)          (millions)        Account            (millions)

           G             $    0              $114.4              2111            ($114.4)2

           N             $114.4              $    0              2113             $114.43

 1
   Total accruals less total disbursements equals the balances for accounts payable.
 2
   Abnormal balance for general ledger account 2111.
 3
   Overstated balance for general ledger account 2113.




        Impact on the Financial Statements and Elimination Process. If the
abnormal balances and overstatements are not corrected, those balances, when
transferred to the Other Defense Organizations financial statements, will cause
the amounts reported for “Intragovernmental Accounts Payable” and for
“Accounts Payable (to the public)” to be misstated on the Consolidated Balance
Sheet. Additionally, when the Other Defense Organizations are compiled into


                                            5
            the Defense Agency-Wide financial statements, transactions with other DoD
            entities cannot be properly eliminated because those transactions are reported as
            being with the public.1 The Indianapolis Accounting Office has already
            demonstrated laudable efforts in correcting existing transactions. To prevent a
            recurrence of these deficiencies in future fiscal years, the Indianapolis
            Accounting Office should create and implement written procedures to record
            related transactions with the same ODC.

            Multiple Reporting Periods. Of the $233.8 million in net abnormal balances,
            $61.2 million was reported in two accounts because the accounting system, the
            WAAS, as configured, did not properly differentiate between accrual
            adjustments affecting multiple reporting periods and, therefore, did not post
            those transactions to the correct general ledger accounts, as shown in Table 4.

                                   Table 4. Abnormal Balances Created by
                                   Not Identifying Prior Reporting Periods

                                                                                                Net
                                                                           General            Abnormal
                                                                           Ledger             Balances
                               Account Title                               Account              (millions)

               Appropriated Capital Used                                     5700                $33.1

               Other Services Expense                                        6120                  28.1

                    Total                                                                        $61.2


            The WAAS uses a combination of accruals and other transaction data to
            calculate the balance for the capital and expense accounts.2 During the current
            reporting period, accounting personnel adjusted accruals recorded in multiple
            reporting periods and the WAAS incorrectly posted all of those adjustments to
            the current year capital and expense accounts. General ledger accounts 5700
            and 6120 are primarily intended to report adjustments for transactions recorded
            in the current reporting period. Adjustments affecting prior periods should be
            posted to Prior Period Adjustments (general ledger account 7400).

                   Adjustments Affecting General Ledger Accounts 5700 and 6120. We
            reviewed $52.1 million3 and $41 million of downward accrual adjustments that
            contributed to the net abnormal balances in general ledger accounts 5700
            and 6120, respectively. Although the transactions affected multiple reporting

1
    When financial statements for multiple entities are consolidated into a single financial statement,
    transactions between those entities must be eliminated. Only the transactions with external entities are
    to be reported.
2
    The WAAS records four types of transactions: commitments, obligations, accruals, and disbursements.
    The four transactions, along with various classification codes, are used to calculate balances that are
    later posted to general ledger accounts.
3
    An abnormal balance reflects the net amount by which the total abnormal transactions exceed the total
    normal transactions. Therefore, the total value of abnormal transactions is ordinarily larger than the
    amount of the abnormal balance.



                                                        6
            periods, the WAAS posted all the adjustments to the two current reporting
            period accounts. As nominal accounts,4 general ledger accounts 5700 and 6120
            are closed at the end of each year. Therefore, recording downward adjustments
            for a prior period in either account can create an abnormal balance when the
            total downward adjustments for prior periods exceed the total new accruals
            recorded in the current reporting period. To identify further opportunities for
            improvement, we performed additional analysis to determine why the
            Indianapolis Accounting Office recorded numerous downward accrual
            adjustments.

                   Downward Accrual Adjustments. Of the $52.1 million and
            $41 million of downward accrual adjustments in general ledger accounts 5700
            and 6120, respectively, the Indianapolis Accounting Office recorded adjustments
            to remove duplicate accruals and to reverse accruals that were no longer
            considered valid, as shown in Table 5.

                                 Table 5. Downward Accrual Adjustments
                            Recorded in General Ledger Accounts 5700 and 6120

                                                                     Adjustments
                                                                                                   Total
                                                             To Remove         To Reverse       Downward
                                             General          Duplicate          Invalid         Accrual
                                             Ledger           Accruals          Accruals        Adjustments
                 Account Title               Account           (millions)        (millions)        (millions)

               Appropriated Capital            5700             $38.1            $14.0              $52.1
                 Used

               Other Services                  6120             $35.3             $5.7              $41.0
                 Expense


            Accounting personnel duplicated accruals by recording accruals once during the
            prevalidation process,5 and again when recording the actual disbursements.
            Accounting personnel recorded disbursements with a liquidation indicator code6
            of “P,” which initiated a system-generated accrual equal to the amount of the
            disbursement. Given that an accrual was already recorded during prevalidation,
            accounting personnel should have used a different liquidation indicator code that
            did not automatically trigger another accrual. For the adjustments that we
            reviewed, the Indianapolis Accounting Office removed the duplicate accrual in
4
    Nominal general ledger accounts are accounts that are closed each year and begin the following year
    with a zero balance, as opposed to real general ledger accounts, which begin the following year with the
    prior year’s ending balance.
5
    Prevalidation is the process in which the Indianapolis Accounting Office confirms that obligated funds
    are available to pay an invoice received from a vendor before a disbursement is made to the vendor.
    When obligated funds are available, the Indianapolis Accounting Office records an accrual in the
    WAAS, the payment is considered prevalidated, and the disbursing station is notified to make the
    disbursement.
6
    A liquidation indicator code is an attribute recorded as part of a disbursement entry that indicates the
    corresponding entry, if any, that the WAAS should record as a result of recording the disbursement.



                                                         7
    one of the fiscal years following the original posting, which contributed to the
    abnormal balances in general ledger accounts 5700 and 6120.

            Impact on the Financial Statements. If the abnormal balances are not
    corrected, those balances, when transferred to the Other Defense Organizations
    financial statements, will cause the amounts reported as “Other Appropriations
    Used” on the Statement of Changes in Net Position and as “Program Costs” on
    the Statement of Net Cost to be misstated. The Indianapolis Accounting Office
    has already demonstrated positive efforts in correcting existing transactions. To
    prevent a recurrence of these deficiencies in future fiscal years, the Indianapolis
    Accounting Office can reduce the magnitude of total accrual adjustments and
    reduce the risk of reporting an abnormal balance in the accounts by developing
    and implementing control procedures to record accruals only once in the
    WAAS.



Procedures for Reviewing Trial Balances

    Required Reviews. DoD Regulation 7000.14-R, volume 6A, “Reporting
    Policies and Procedures,” chapter 2, “Departmental Financial Reports Roles
    and Responsibilities,” February 1996 (with changes through 1998), requires
    DFAS to review financial reports for the following:

           •   abnormal balances,

           •   mathematical accuracy,

           •   correct internal relationships for amounts that are interdependent and
               included on the same report, and

           •   unusual trends over multiple time periods.

    When DFAS identifies deficiencies, it is required to initiate research and take
    action to resolve the deficiencies.

    Large abnormal balances were reported on the March 31, 2000, trial balances
    because the Indianapolis Accounting Office did not perform the required
    reviews, initiate research, or take action to resolve the deficiencies. In the past,
    trial balances were forwarded to the CFO Team at the DFAS Center
    Indianapolis (Sustaining Forces) each quarter and at year-end for inclusion in the
    financial statements without the benefit of being checked for validity and
    accuracy. We reviewed 3 of the 29 general ledger accounts with abnormal
    balances; however, the Indianapolis Accounting Office should review and
    correct all remaining general ledger accounts with abnormal balances. The
    Indianapolis Accounting Office can directly improve the quality of the year-end
    trial balances and the resulting financial statements for the Other Defense
    Organizations by actively reviewing the quarterly trial balances and continuously
    working to correct deficiencies.

    Written Procedures. Inspector General, DoD, Report No. D-2000-097,
    “Accounting Procedures and Controls Over Financial Data Supporting Selected


                                         8
            Other Defense Organizations,” March 9, 2000, recommended that the
            Indianapolis Accounting Office prepare written standard operating procedures to
            provide accountants with specific guidance for reviewing financial reports. In
            the new written procedures, the Indianapolis Accounting Office required
            personnel on the Reports Team to review trial balances for abnormal conditions.
            However, the new written procedure did not provide detailed guidance for
            performing the reviews and was never implemented. The Indianapolis
            Accounting Office can make the written procedures more useful by expanding
            them to include the following:

                             •          the definition of an abnormal balance;

                             •          descriptions of specific analytical techniques to use for detecting
                                        abnormal balances;

                             •          sequential electronic steps for researching general ledger account
                                        balances; and

                             •          descriptions of specific actions to correct problems, to include
                                        contacting the related Other Defense Organizations when necessary.

            Corrective Actions. After being informed of the large abnormal balance on the
            mid-year trial balances, Indianapolis Accounting Office personnel performed a
            detailed review of the September 30, 2000, year-end trial balances. The
            Indianapolis Accounting Office identified the abnormal balances, corrected the
            majority of those balances, and successfully reduced the total net abnormal
            balances from $233.8 million reported on the March 31, 2000, trial balances to
            $75.6 million reported on the September 30, 2000, trial balances, as shown in
            the graph below.7

                                             Defense Agency Financial Services Accounting Office
                                                        Total Net Abnormal Balances
                                                                    (millions)
                                  300.0


                                                                         $233.8
                   Abnormal Balances




                                  200.0


                                                      $164.9


                                  100.0
                                                                                            $75.6




                                       0.0
                                              October 1,1999     March 31,2000    September 30,2000

7
    In the graph, $164.9 million of net abnormal balances as of October 1, 1999, represents the portion of
     the $215.8 million of year-end total net abnormal balances as of September 30, 1999, that were
     transferred as beginning balances to FY 2000.



                                                                  9
            Based on prior year trends and the $215.8 million of year-end total net abnormal
            balances as of September 30, 1999, the Indianapolis Accounting Office was
            likely to incur another large abnormal balance condition. However, the
            Indianapolis Accounting Office took action on our concerns and performed a
            detailed manual review of trial balances and related transactions to reduce
            abnormal balances for FY 2000 and future years’ trial balances. On
            December 13, 2000, we demonstrated the use of the Trial Balance Analyzer 8
            and Trial Balance Tool Case9 to the Indianapolis Accounting Office personnel.
            The personnel plan to use both tools to review future quarterly trial balances.

            Explanatory Trial Balance Footnotes. DFAS Center Indianapolis (Sustaining
            Forces) Memorandum, “Fiscal Year 1999 Year-End Instructions for Defense
            Agencies,” June 9, 1999, requires accounting offices that submit trial balances
            to also prepare accompanying footnotes to explain abnormal balances. The
            Indianapolis Accounting Office did not prepare trial balance footnotes in the
            past. As a result, the Indianapolis Accounting Office forwarded trial balances to
            the CFO Team and the CFO Team included them in the financial statements
            without adequate information being available to make proper disclosures in the
            financial statement footnotes.10 The Indianapolis Accounting Office needs to
            update the standard operating procedure titled “Reports” to require Indianapolis
            accountants to prepare footnotes to the trial balances and to provide detailed
            procedures on how to prepare the footnotes.



WAAS System Capabilities

            Query Programs. During the audit, we requested that the Indianapolis
            Accounting Office personnel provide detailed support at the transaction level for
            abnormal balances reported on the trial balance. However, they were unable to
            promptly provide the data because of limitations in the WAAS, a system that the
            Washington Headquarters Services supports. The WAAS contained predefined
            standard queries for conducting detailed research on general ledger account
            balances. But those queries were not available in an executable format for the
            Indianapolis accountants, who then contacted the Washington Headquarters
            Services and requested assistance. For each of the general ledger accounts in
            our audit, Washington Headquarters Services personnel modified the query
            interface and made the queries available in a format that the Indianapolis
            accountants could execute. The Indianapolis accountants then executed the
            query programs and provided detailed transactions to us for review. For the
            Indianapolis Accounting Office to properly conduct its own comprehensive
            review of the trial balances, all query programs for the general ledger accounts
            reported on the trial balance

8
    The Trial Balance Analyzer is an electronic database tool developed and distributed by the Inspector
    General, DoD, for analyzing trial balances and identifying abnormal balances.
9
    The Trial Balance Tool Case is a set of analytical procedures developed by the Inspector General, DoD,
    for reviewing trial balances and identifying obvious errors.
10
    Inspector General, DoD, Report No. D-2000-153 states that the Indianapolis Accounting Office
    submitted trial balances with $215.8 million of abnormal balances without the required accompanying
    explanatory footnotes.



                                                      10
        should be made available in a format that the Indianapolis accountants can
        readily use. Recommendations to correct this deficiency will be directed to the
        Washington Headquarters Services in a separate report.11

        System Manuals. The Washington Headquarters Services published a WAAS
        Design Manual and a WAAS User’s Manual to assist users in operating the
        system. Updating the manuals to address trial balance reviews could
        substantially increase the usefulness of both manuals. The WAAS Design
        Manual should provide a detailed description of the queries available to research
        general ledger account balances, and of the mapping process used to transfer
        transactions to general ledger accounts. The WAAS User’s Manual should
        provide specific instructions on executing queries and interpreting the results.
        Recommendations to correct this deficiency will be directed to the Washington
        Headquarters Services in a separate report.



Recommendations and Management Comments

        We recommend that the Director, Defense Finance and Accounting Service
        Center Indianapolis (Sustaining Forces), direct the Defense Agency
        Financial Services Accounting Office:

               1. Review all disbursements and accruals that are not recorded with
        the same obligation data code, identify which transactions are entered
        properly, and correct the corresponding entries.

        Management Comments. DFAS concurred and stated the Defense Agency
        Financial Services Accounting Office is working to identify document numbers
        with mismatched obligation indicator codes for obligations, accruals, and
        disbursements, and accounting personnel will then review supporting
        documentation, determine the correct obligation indicator codes, and manually
        correct the codes of the mismatched transactions. The estimated completion
        date is March 31, 2001.
              2. Develop and implement procedures that, at a minimum, require
        accounting personnel to:

                      a. Review related accruals and disbursements, and
        consistently use the same obligation data code.

        Management Comments. DFAS concurred. The Defense Agency Financial
        Services Accounting Office will evaluate current procedures and develop new
        procedures as needed for reviewing the obligation indicator codes for related
        accruals and disbursements. The Customer Desktop Interface Standard
        Operating Procedures manual will be revised to include these procedures. The
        estimated completion date is March 31, 2001.

11
 The Inspector General, DoD, issued a draft audit report for Project No. D2000FA-0146.002,
 “Financial Reporting at the Washington Headquarters Services,” December 26, 2000, which addresses
 WAAS system capabilities.



                                                11
             b. Record in the Washington Headquarters Services
Allotment Accounting System one accrual for each disbursement.

Management Comments. DFAS stated that the Defense Agency Financial
Services Accounting Office suspended the process of recording accruals at the
time of obligation pre-validation in July 2000.

        3. Revise the existing standard operating procedure titled “Reports”
to, at a minimum:

              a. Define abnormal balances.

               b. Describe specific analytical techniques that personnel can
use to detect abnormal balances.

              c. Enumerate procedures to use the accounting system to
research detailed transactions that support general ledger account balances.

             d. Outline the specific actions to correct deficiencies and to
contact appropriate Other Defense Organizations as necessary.

              e. Require Indianapolis accountants to prepare trial balance
footnotes explaining abnormal balances.

Management Comments. DFAS concurred. The Defense Agency Financial
Services Accounting Office is currently revising the “Reports” procedures guide
to include all auditor-requested information listed in Recommendations 3.a.
to 3.e. In addition, the Defense Agency Financial Services accountants will
receive formal training in the preparation of trial balances and explanatory
footnotes. Regarding Recommendation 3.e., the Defense Agency Financial
Services Customer Interface Support Team will prepare the trial balances and
the accompanying footnotes beginning with the December 2000 accounting data.
The estimated completion date for Recommendations 3.a. to 3.d. is March 31,
2001; and for Recommendation 3.e. was to have been January 31, 2001.

       4. Implement the standard operating procedure on financial
reporting by conducting quarterly reviews of the trial balances.

Management Comments. DFAS concurred. The Defense Agency Financial
Services Accounting Office will implement procedures requiring the Customer
Interface Support Team to conduct quarterly reviews on trial balances. The
estimated completion date was to have been January 31, 2001.




                                   12
Appendix A. Audit Process

Scope

    Financial Information, Procedures, and Controls Reviewed. We reviewed
    the procedures and related controls used by the Indianapolis Accounting Office
    to prepare financial reports. We narrowed our scope to focus on the preparation
    of trial balances and the supporting transactions. We reviewed detailed
    transactions of $114.4 million for general ledger account 2111, $52.1 million
    for general ledger account 5700, and $41 million for general ledger
    account 6120. We reviewed written standard operating procedures, disbursing
    documents, Reports on Budget Execution, and trial balances for the FY 1999
    and FY 2000 reporting periods. We also interviewed personnel to determine
    how information is obtained, recorded, and reported in the trial balance
    financial reports.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures.

           •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains
               U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and financial systems. (01-DoD-2.5.1)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

           •   Financial Management Functional Area. Objective: Reengineer
               DoD business practices. Goal: Improve data standardization of
               finance and accounting data items. (FM-4.4)




                                       13
           •   Financial Management Functional Area. Objective: Strengthen
               internal controls. Goal: Improve compliance with the Federal
               Managers’ Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.



Methodology

    Review of Accounts Payable Government-Current (General Ledger
    Account 2111). We identified all entity account balances with abnormal
    balances greater than $1 million as of March 31, 2000, and reviewed all related
    transactions greater than $100,000, for a total review of $114.4 million of
    transactions.

    Review of Appropriated Capital Used (General Ledger Account 5700). We
    identified all entity abnormal balances greater than $1 million as of March 31,
    2000, and reviewed all related transactions greater than $500,000, for a total
    review of $52.1 million of transactions.

    Review of Other Services Expense (General Ledger Account 6120). We
    identified all entity abnormal balances greater than $1 million as of March 31,
    2000, and reviewed all related transactions greater than $500,000, for a total
    review of $41 million of transactions.

    Computer-Processed Data. We relied on computer-processed data contained
    in the WAAS, which is a Washington Headquarters Services system. We
    obtained information on obligations, disbursements, and accruals from the
    WAAS. We performed limited testing on the system by reviewing transactions
    supporting the trial balances. Our limited assessments of the system showed
    that, as configured, the WAAS was posting transactions to the incorrect
    reporting period. However, the lack of reliable information did not adversely
    affect our analysis and, when the data are reviewed in context with other
    available evidence, we believe that the opinions, conclusions, and
    recommendations in this report are valid.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from April 2000 to October 2000 at the DFAS Center Indianapolis (Sustaining
    Forces) according to auditing standards issued by the Comptroller General of
    United States, as implemented by the Inspector General, DoD. We included
    tests of management controls considered necessary.

    Contacts During the Audit. We visited and contacted individuals and
    organizations within the DoD. Further details are available on request.




                                       14
Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Center Indianapolis (Sustaining Forces) management
    controls over the Indianapolis Accounting Office and Department 97 financial
    reporting. Specifically, we reviewed the controls over preparing and reviewing
    trial balances. We reviewed management’s self-evaluation applicable to those
    controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for the Indianapolis Accounting Office as defined by DoD
    Instruction 5010.40. The Indianapolis Accounting Office controls over the
    preparation and reporting of trial balances were not adequate to ensure that trial
    balances were accurate and reliable. The weakness is material to both the trial
    balances prepared by the Indianapolis Accounting Office and to the financial
    statements prepared for the Other Defense Organizations-General Funds. The
    recommendations, if implemented, should correct the control weakness. A copy
    of the report will be provided to the Director, DFAS Center Indianapolis
    (Sustaining Forces).

    Adequacy of Management’s Self-Evaluation. Managers at the DFAS Center
    Indianapolis (Sustaining Forces) identified Department 97 accounting performed
    by the Indianapolis Accounting Office as an assessable unit and, in our opinion,
    correctly identified the associated risk as high. DFAS Center Indianapolis
    (Sustaining Forces) officials identified and reported trial balance reporting as a
    management controls weakness and developed a standard operating procedure to
    correct the weakness. However, the actions that the DFAS Center Indianapolis
    (Sustaining Forces) implemented did not correct the material management
    control weakness because the procedure, as written, was too general and was
    never fully implemented to affect the specific material weakness that the audit
    identified.




                                        15
Prior Coverage

    The following two Inspector General, DoD, audit reports issued within the past
    5 years discuss financial and accounting information at the Indianapolis
    Accounting Office:

    Inspector General, DoD, Report No. D-2000-153, “Compilation of the FY 1999
    Financial Statements for Other Defense Organizations-General Funds,”
    June 23, 2000

    Inspector General, DoD, Report No. D-2000-097, “Accounting Procedures and
    Controls Over Financial Data Supporting Selected Other Defense
    Organizations,” March 9, 2000




                                      16
Appendix B. General Ledger Accounts With Net
            Abnormal Balances
                                                   General Ledger         Net
General Ledger Account Title                       Account Number   Abnormal Balance
                                                                      (absolute value)

Accounts Payable-Government-Current                     2111          $129,033,236.60
Appropriated Capital Used                               5700            33,112,131.02
Other Services Expense                                  6120            28,138,391.14
Uncommitted/Unobligated Allotment-Reimbursable-         4614             6,831,936.54
   Current Period
Accounts Payable-Public-Current                         2113             5,144,930.01
Undelivered Orders Without Advance-Direct               4811             4,865,149.99
   Program
Equipment (Not Capitalized)                             6122             4,177,054.13
Travel and Transportation of Persons                    6116             3,733,628.34
Transportation of Things                                6117             3,647,727.45
Funds Disbursed                                         1012             3,347,867.45
Accrued Expenditures-Paid-Direct                        4931             3,325,710.87
Funds Collected                                         1011             2,056,224.63
Reimbursements Earned-Collected-Specific                4254             2,056,224.63
   Apportionment-Funded
Rent, Communications, and Utilities                     6118             1,191,813.80
Accrued Expenditures-Paid-Reimbursable                  4941               751,208.89
Funds With Treasury                                     1013               693,006.34
Allotments Received                                     4580               693,006.34
Accrued Expenditures-Unpaid-Direct                      4910               319,374.29
Unfilled Customers Orders-Without Advance-              4232               190,690.27
   Specific Apportionment-Funded
Travel Advances                                         1411               114,423.04
Undelivered Orders with Advance-Direct Program          4812               114,423.04
Supplies and Materials                                  6121               112,867.12
Personnel Benefits-Civilian                             6113                60,761.78
Personnel Compensation-Civilian                         6111                57,246.14
Miscellaneous Reimbursements                            5910                27,945.95
Undelivered Orders With Advance-Reimbursable            4822                 6,500.00
   Program
Allotted Funded Reimbursement Authority-                4583                 4,995.50
   Subsequent Period
Other Interest Expenses                                 6330                 2,225.32
Depreciation of Equipment                               6125                   894.52
  Total                                                               $233,811,595.14




                                              17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Center Indianapolis (Sustaining
     Forces)

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform



                                           18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       19
Defense Finance and Accounting Service
Comments




                  21
22
23
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report, are listed below.

F. Jay Lane
Salvatore D. Guli
Charles J. Richardson
Sandra L. Fissel
Jonathan R. Witter
Jennifer R. Siwula
Dwayne A. Coulson
Juana R. Smith
Walter J. Gaich
Charles A. Mordecai
Sharon Carvalho
